<html>
<title> - THE ROAD LESS TRAVELED: REDUCING FEDERAL TRAVEL & CONFERENCE SPENDING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 THE ROAD LESS TRAVELED: REDUCING FEDERAL TRAVEL & CONFERENCE SPENDING

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,

                   U.S. POSTAL SERVICE AND THE CENSUS

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2013

                               __________

                           Serial No. 113-14

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
80-898                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        VACANCY
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

 Subcommittee on Federal Workforce, U.S. Postal Service and the Census

                   BLAKE FARENTHOLD, Texas, Chairman
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts, 
TREY GOWDY, South Carolina               Ranking Minority Member
DOUG COLLINS, Georgia                ELEANOR HOLMES NORTON, District of 
RON DeSANTIS, Florida                    Columbia
                                     WM. LACY CLAY, Missouri


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2013................................     1

                               WITNESSES

The Honorable Rush Holt, a Member of Congress from the State of 
  New Jersey
    Oral Statement...............................................     4
    Written Statement............................................     6
Mr. Danny Werfel, Comptroller, U.S. Office of Management and 
  Budget
    Oral Statement...............................................     9
    Written Statement............................................    12
Ms. Cynthia Metzler, Chief Administrative Services Officer, U.S. 
  General Services Administration
    Oral Statement...............................................    16
    Written Statement............................................    18

                                APPENDIX

 A letter from the U.S. Science, Engineering and Higher Education 
  Organizations Written to the Honorable Blake Farenthold, a 
  Member of Congress from the State of Texas.....................    30
A letter from Barry C. Melancon, CPA, CGMA President and CEO, 
  American Institute of CPAs.....................................    32
The Honorable Stephen F. Lynch, a Member of Congress from the 
  State of Massachusetts, Opening Statement......................    33
Questions for the Honorable Daniel Werfel from the Honorable 
  Blake Farenthold...............................................    35
A letter from the Center for Association Leadership (ASAE).......    43
A letter from the Government Managers Coalition to the Honorable 
  Blake Farenthold...............................................    45
A letter to the Honorable Blake Farenthold from the Society of 
  Toxicology.....................................................    48


 THE ROAD LESS TRAVELED: REDUCING FEDERAL TRAVEL & CONFERENCE SPENDING

                              ----------                              


                     Wednesday, February 27, 2013,

                  House of Representatives,
    Subcommittee on Federal Workforce, U.S. Postal 
                            Service and the Census,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 12:33 p.m. in 
room 2247, Rayburn House Office Building, the Honorable Blake 
Farenthold [chairman of the subcommittee], presiding.
    Present: Representatives Farenthold, Walberg, Lynch and 
Clay.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Alexia Ardolina, Majority Assistant Clerk; Molly Boyl, Majority 
Parliamentarian; Adam P. Fromm, Majority Director of Member 
Services and Committee Operations; Linda Good, Majority Chief 
Clerk; Jeffrey Post, Majority Professional Staff Member; James 
Robertson, Majority Professional Staff Member; Scott Schmidt, 
Deputy Director of Digital Strategy; Peter Warren, Majority 
Legislative Policy Director; Lena Chang, Minority Counsel; 
Jennifer Hoffman, Minority Press Secretary; Adam Koshkin, 
Minority Research Assistant; and Mark Stephenson, Minority 
Director of Legislation.
    Mr. Farenthold. The Subcommittee on the Federal Workforce, 
U.S. Postal Service and Census is hereby called to order. We 
are ready to get our hearing underway.
    I would like to begin by reciting the mission statement of 
the Government Oversight and Reform Committee.
    We exist to secure two fundamental principles. First, 
Americans have the right to know that the money Washington 
takes from them is well spent. Second, Americans deserve an 
efficient and effective government that works for them.
    Our duty on the Government Oversight and Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold the government accountable to taxpayers because taxpayers 
have a right to know what they get from their government. We 
will work tirelessly in partnership with citizen watchdogs to 
deliver the facts to the American people and bring genuine 
reform to the federal bureaucracy.
    This is the mission of the Government Oversight and Reform 
Committee.
    I will now recognize myself for five minutes for an opening 
statement.
    Nine months ago, the whole Committee on Government 
Oversight and Reform held a hearing on the now infamous GSA Las 
Vegas conference that cost the taxpayers more than $750,000 
spent by the agency that is charged with keeping federal costs 
low.
    Shortly following that boondoggle and justifiable public 
outcry accompanying it, the OMB issued a memo in May 2012 
outlining new policies and procedures for federal travel and 
conferences. The OMB guidance instructs the heads of federal 
departments and agencies for the fiscal year 2013 to spend at 
least 30 percent less on travel expenses than they did in 
fiscal year 2010. This is similar to a recommendation of the 
President's Simpson Bowles Commission. If that goal is met, the 
Federal Government will have spent around $4.6 billion in non-
military federal employee travel this year.
    In addition, the OMB memo offers new rules for conferences 
such as requiring senior level review for planned events, 
senior level approval and public reporting for those in excess 
of $100,000 and a general prohibition on those costing more 
than $500,000 unless a head of an agency provides a waiver.
    For fiscal year 2012 alone, there were 750 conferences that 
cost in excess of $100,000. The total cost to the taxpayers of 
these events was more than a quarter of a billion dollars. With 
the looming $85 billion across the board sequester spending 
cuts and the Administration s unwillingness to offer specific 
cost saving measures, today s hearing offers us an opportunity 
to hear how OMB's directive, if fully and responsibly 
implemented, can potentially help save the taxpayers billions 
of dollars by reducing travel in conference costs that may not 
be necessary for federal employees to discharge the duties of 
their office.
    We are hoping to determine today if these new policies will 
curb wasteful and expenditures and what new statutory changes 
may be required to reduce travel spending and appropriately 
shred greater transparency upon travel and conference spending. 
We want to ensure that a GSA, Las Vegas-type conference does 
not happen again.
    In the last Congress, this committee approved legislation 
that eventually passed unanimously in the House of 
Representatives that would largely implement the guidelines of 
the OMB memo and create greater transparency in travel and 
conference spending. Our former colleague, Jo Ann Emerson, 
reintroduced this legislation, H.R. 313, the Government 
Spending and Accountability Act, earlier this year.
    This is not an indictment of conferences or travel. The 
district I represent, Corpus Christi, Texas, is a tourist 
destination and home to many conferences. What this is is an 
investigation into how the public money is spent. It is 
different from how the private sector's money is spent; it is 
different from how your personal money is spent.
    It always has to be kept in mind why those traveling on the 
taxpayers dollars need to be frugal, to treat that money better 
than they would treat their own money.
    Mr. Farenthold. I look forward now to hearing from the 
witnesses. I will yield now to the Ranking Member, Mr. Lynch.
    I am a Texan. Anybody north of Texas and Louisiana is 
potentially a Yankee.
    Mr. Lynch. There you go. As a Red Sox fan, I have to go 
easy though.
    Thank you, Mr. Chairman.
    At the outset, let me congratulate you on your appointment 
as Chairman of our subcommittee from addressing comprehensive 
reform of the United States Postal Service and challenges 
facing our dedicated federal workforce to examining important 
Census Bureau issues. Our subcommittee has a lot of work on its 
plate and I look forward to working with you on all those 
issues in this new Congress.
    I appreciate the Chairman calling this hearing to monitor 
the Federal Government's progress in reducing travel and 
conference spending, strengthening internal controls and 
enhancing cost transparency. It is important for the Congress 
and the American taxpayer to be assured that the government 
spends money only for what is absolutely necessary regarding 
travel and conferences.
    We all remember as the Chairman has noted, the excessive, 
improper spending by the General Services Administration on a 
2010 Las Vegas conference and by the Veterans Affairs 
Department on two conferences held in Orlando, Florida. These 
conferences were regrettably examples of wasteful spending 
which justified heightened scrutiny by Congress and the 
Administration.
    In particular, the committee held a hearing last April 
looking into the GSA conference and the Administration issued a 
subsequent directive to all Executive Branch agencies mandating 
that 30 percent of travel and conference spending be reduced, 
imposing conference cost restructuring and restrictions and 
public posting and reporting requirements.
    We all regret the misspending that went forward there. We 
agree that the government must be a good steward of American 
taxpayer's money and that it is important to shine on 
government travel and conference spending.
    As part of our oversight responsibilities, this hearing 
will help us examine agency progress in implementing the 
Administration's directive. It is critical for us to know how 
much the Federal Government, as a whole, is spending on travel 
and conferences. We need to ensure that only necessary 
conferences are held and only those who need to attend 
participate and that there are no improper expenses.
    In this regard, I look forward to Representative Holt's 
testimony about the impact on the scientific community. In 
addition, Mr. Chairman, I received two letters yesterday 
expressing views about federal travel and conference policies, 
one from the American Association for the Advancement of 
Science and several other scientific organizations and another 
from the American Institute of Certified Public Accountants. I 
ask unanimous consent that the letters be included in the 
hearing record.
    Mr. Farenthold. Without objection.
    Mr. Lynch. Lastly, I would note that we only have two 
legislative days before sequestration takes effect and 14 
legislative days before a possible government shutdown takes 
effect. Accordingly, I would urge this committee to dedicate 
its oversight efforts to examining the opportunities to prevent 
that and also the potential impact of these budgetary events so 
that we can best address the corresponding needs of our 
agencies and federal employees.
    Mr. Chairman, again, congratulations on your appointment. 
Thank you and I yield back.
    Mr. Farenthold. Thank you. I look forward to working with 
you throughout this congressional term. We have our work cut 
out for us and I hope we can get all of it done.
    We have the distinct privilege of having a distinguished 
colleague here to testify before us. As is the tradition and 
protocol associated with this committee, we will allow 
Representative Holt, who represents the 12th Congressional 
District of New Jersey to testify first. Then I will introduce 
and swear in the rest of the panel.
    Representative Holt, you are recognized.

                       WITNESS STATEMENTS

STATEMENT OF HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Chairman Farenthold, Mr. Lynch and Mr. 
Clay. I thank you for the opportunity.
    As a professional scientist and now a member of Congress, I 
testify today with firsthand knowledge of how scientific 
innovation, especially what has developed from the sharing of 
ideas at conferences, contributes to every American's quality 
of life.
    As we work to ensure oversight on travel expenditures, we 
should work to preserve the many benefits of appropriate 
travel. Many scientists, for example, receive federal grants 
from the National Science Foundation, the Department of Energy, 
the National Institutes of Health, and others. These scientists 
rely on federal funding to travel to conferences in order to 
share thoughts, to collaborate, to learn from their peers to 
advance knowledge and to create innovation.
    Both H.R. 313 and the OMB Guidance, I think regrettably, 
put forward prohibitions and impediments that hinder scientific 
collaboration and communication. I know firsthand how important 
scientific conferences and meetings are. The informal 
conversations as well as the formal presentations that go into 
a conference lead to real collaboration. These are not fancy 
junkets.
    What is so special about science? Why does it work? It 
works because one of its fundamental tenets is communication. 
To be sure, there are many ways to communicate but scientific 
conferences are critically important. A recent essay by the 
Presidents of the American Chemical Society and the American 
Physical Society discuss, for example, an anti-cancer drug that 
was the result of collaboration between a team of scientists at 
three laboratories that took place at conferences. I think the 
obstacles this bill creates would hinder that kind of 
collaboration.
    The American Chemical Society, at its biennial meetings, 
attracts typically 13,000 chemists and chemical engineers, 
about 800 of them on federal contract. Under the new rules and 
the pending legislation, as I understand it, 50 percent roughly 
of those federal scientists would be cut off from participation 
with the chemistry community in these meetings. The Division of 
Plasma Physics and the American Physical Society that I know 
well meets each year with hundreds of engineers and scientists 
from around the Country, many hundreds of them on DOE 
contracts.
    The fact remains that many insights are possible only 
because of close personal interactions among scientists who see 
each other regularly. Those who do not work at the same 
university or laboratory must rely on interacting at the 
conferences. Proximity matters in science as in other fields.
    Just to drive this point home, let me ask if you would 
propose that the Legislative Branch, you and I, remain in 435 
separate locations, never to see each other, communicating by 
email and phoning in our votes. It could save hundreds of 
expensive trips each week to do that. Do you think, as I do, 
that the Country would be worse off?
    I am hopeful that this oversight hearing and Administrative 
Guidance would be modified to allow for scientific progress 
instead of obstructing the sharing of ideas an information. A 
weakening of collaboration is not a wise course. It is not the 
way to build our economy; it is not the way to create jobs and 
the innovation that leads to those jobs.
    We should be investing more in research and development 
generally at the federal level, as well as in the private 
sector. That also means investing in scientists and investing 
in scientist's ability to pursue the scientific procedure which 
includes face-to-face communication as well as electronic and 
print communication.
    I would argue we should be spending more on conferences 
like those which promote. I realize this is heresy in the day 
before the sequestration takes place but I would argue we 
should be spending more on conferences like those. We should be 
investing more in research and research scientists in 
microbiology, in physics and chemistry, in a myriad of other 
scientific areas.
    These are not instances of wasteful spending. Not every 
collaboration leads to successful science, but many do. You do 
not need too many successful examples of cancer drugs, energy 
sources, transportation improvements or public health advances 
to understand this is an important investment.
    I thank the committee.
    [Prepared statement of Mr. Holt follows:]

    [GRAPHIC] [TIFF OMITTED] 80898.001
    
    [GRAPHIC] [TIFF OMITTED] 80898.002
    
    [GRAPHIC] [TIFF OMITTED] 80898.003
    
    Mr. Farenthold. Thank you very much, Representative Holt. 
You are welcome to stick around. I know our schedule is busy 
today. If you wish to take off and attend to other maters, you 
are welcome to do that as well. We appreciate your testimony 
and your input.
    Mr. Holt. Thank you, Mr. Chairman.
    Mr. Farenthold. As we got into this, I failed to mention 
earlier on that members will have seven days to submit opening 
statements for the record.
    Mr. Holt. Mr. Chairman, I do have prepared testimony that I 
would like to have included in full.
    Mr. Farenthold. Absolutely. Without objection, so ordered.
    At this point, we will introduce our other two witnesses. 
The Honorable Danny Werfel is the Comptroller of the U.S. 
Office of Management and Budget. Ms. Cynthia Metzler is the 
Chief Administrative Services Officer of the U.S. General 
Services Administration.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. Please stand and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Farenthold. Thank you. You may be seated.
    Let the record reflect that both witnesses answered in the 
affirmative.
    In order to allow time for discussion and questions, we 
would ask that you limit your testimony to five minutes.
    You have testified before Congress before. We have these 
fancy devices in front of you that count down the time and much 
like a traffic signal, green means go, yellow means speed up 
and red means stop.
    We will start with Mr. Werfel.

                   STATEMENT OF DANNY WERFEL

    Mr. Werfel. Thank you, Chairman Farenthold, Ranking Member 
Lynch and members of the subcommittee, for the invitation to 
discuss our work to reduce federal travel and conference 
spending, as well as our efforts to increase public 
transparency on travel and conference activity.
    As you know, this Administration has taken a number of 
aggressive steps to cut waste and modernize government over the 
past four years, working to create a government that is more 
efficient, effective and accountable to the American people.
    A key area of focus in this area has been working to reduce 
spending on travel and conferences by focusing on making 
smarter decisions, eliminating unnecessary trips and 
conferences, and implementing innovative solutions that reduce 
costs, save time and achieve better results overall.
    More recently, in May of this past year, OMB released a 
memorandum entitled Promoting Efficient Spending to Support 
Agency Operations. This memorandum directed agencies to reduce 
travel spending in fiscal year 2013 by at least 30 percent from 
fiscal year 2010 spending levels and to maintain these reduced 
spending levels through fiscal year 2016.
    The memorandum also directed agencies to institute a series 
of internal controls that require senior level approval of 
certain conference planning related decisions. Agencies now 
must seek senior management approval all the way to the Deputy 
Secretary or Secretary for conference spending over a specific 
threshold.
    Finally, Federal agencies, for the first time, are required 
to begin public reporting of their annual spending on 
conferences in excess of $100,000, allowing the public full 
visibility into how federal dollars are spent on conferences. 
Agencies published the first of these public reports on January 
31, 2013.
    Our efforts are already delivering significant results. In 
fact, agencies expect to lower spending by more than $3 billion 
between fiscal year 2010 and fiscal year 2013 with nearly $2 
billion achieved so far. The reductions have not only been the 
result of reducing overall travel, but by also ensuring that 
required travel is completed in a cost effective manner.
    For example, the U.S. Department of Agriculture has reduced 
travel costs by $125 million in fiscal year 2012 by traveling 
less and traveling smarter and is on tract to reduce total 
travel expenditures by an additional $90 million in fiscal year 
2013 when compared to 2010 levels.
    The Department of Interior has reduced travel spending by 
$30 million through higher utilization of low cost alternatives 
to traditional travel such as webinars, teleconferencing and by 
conducting training in-house or in locations closer to employee 
home offices. These are just a few examples demonstrating 
agencies work to reduce travel expenditures during this time of 
tight budgets. These innovative practices expand beyond travel.
    Agencies are also applying similar cost effective practices 
in the planning and execution of conferences. This includes 
increasing the use of low cost government-owned meeting and 
conference space, it also means thinking creatively about how 
to save money wherever possible such as ending conferences a 
few hours earlier to avoid extra costs associated with an 
additional night of lodging.
    Agencies are also working diligently to establish new 
internal control procedures to ensure that this increased level 
of oversight and accountability continue as part of agency 
overall operations.
    As we continue to build on the progress made to date in 
reducing travel and conference costs, we are also aware of the 
important role travel and conferences can play in carrying out 
an agency s mission. It is important to remember that the 
definition of conferences can involve much more than federal 
employee traveling away from their official duty stations to 
receive training or network with distant colleagues.
    For example, an off-site training event where FBI agents 
learn how to prepare for a potential terrorist attack is 
considered a conference under federal regulations. I think we 
can all agree that such an activity is neither wasteful nor 
unnecessary. Therefore, while we must continue to be vigilant 
about reducing unnecessary travel or conference spending, we 
also must be vigilant in protecting our activities that are 
necessary and vital to our shared priorities as a nation.
    While we believe it is important to highlight agencies 
early efforts in reducing travel and conference spending, our 
work in this area is just beginning. OMB will continue to work 
with agencies to find ways to cut costs, eliminate waste and 
make our spending in all areas more efficient, transparent and 
accountable.
    We also believe that cost cutting activities agencies have 
enacted to date should become part of standard government 
operations going forward. We are working diligently to ensure 
that these new standards remain in place for years to come.
    We look forward to continuing to work with Congress, the 
Inspector General community, other oversight institutions and 
the American public to ensure agencies remain dedicated to 
rooting out waste and driving efficient spending in all 
government operations now and into the future.
    Thank you again for inviting me to testify and I look 
forward to answering your questions.
    [Prepared statement of Mr. Werfel follows:]
    [GRAPHIC] [TIFF OMITTED] 80898.004
    
    [GRAPHIC] [TIFF OMITTED] 80898.005
    
    [GRAPHIC] [TIFF OMITTED] 80898.006
    
    [GRAPHIC] [TIFF OMITTED] 80898.007
    
    Mr. Farenthold. Thank you very much, Mr. Werfel. We 
appreciate your testimony and we will get to questions in a 
moment.
    Next, we have Ms. Cynthia Metzler. She is the Chief 
Administrative Services Officer for the GSA. Ms. Metzler, you 
are recognized for five minutes.

                  STATEMENT OF CYNTHIA METZLER

    Ms. Metzler. Good afternoon, Chairman Farenthold, Ranking 
Member Lynch and members of the subcommittee.
    My name is Cynthia Metzler and I am the Chief 
Administrative Services Officer at the General Services 
Administration.
    In that capacity, I coordinate internal management and 
support services to promote efficiency within the agency, 
covering a wide variety of issues, including conferences and 
travel. I appreciate this opportunity to come before you today 
to discuss the reforms at GSA. I have submitted my full written 
testimony and would like at this time to highlight a few of the 
key reforms.
    Under the leadership of our Acting Administrator, Dan 
Tangherlini, GSA has refocused its mission of delivering the 
best value in real estate acquisition and technology services 
to government and the American people. In April 2012, the 
Acting Administrator issued new guidelines on travel and 
conferences. All spending for travel, including training, 
conference and award ceremonies was suspended.
    Oversight of conference and travel expenses was 
consolidated into my office which was directed to review each 
and every planned conference to make sure that these events and 
any related travel is justified. As part of these reforms, 
travel and conferences can only be approved when all other 
alternatives, including videoconferencing and webinars have 
been considered. Additionally, travel must be for work related 
to GSA's essential mission such as building inspections, 
contract negotiations and meeting with customers.
    To ensure that all travel requests receive appropriate 
review, GSA has instituted policies that limit the use of 
blanket travel authorizations and require that travel is 
authorized in advance on a trip by trip basis. In addition, any 
international travel must be approved by the Deputy 
Administrator to make certain that the considerable expense is 
used only for legitimate purposes.
    With regard to conferences, they can no longer be held 
without submission of a detailed justification, including the 
mission related purpose of the conference and whether any other 
alternatives were considered. A proposed budget, review and 
approval occur from multiple divisions. At a minimum, this 
means that any conference, no matter what its proposed cost, is 
reviewed both by the head of the division and by myself.
    In line with Administration guidance, when the proposed 
cost of a conference exceeds $100,000, the Deputy Administrator 
must approve the conference. If a conference is to cost more 
that $500,000, the Acting Administrator must approve it and 
document justification for why the conference must be held.
    To ensure that we scrutinize any internal meetings that 
require travel, the Deputy Administrator must approve. 
Additionally, any attendance at a conference requires multiple 
levels of approval, including my office. Employees must justify 
their potential attendance and outline the expenses.
    To increase transparency and improve recordkeeping, GSA 
requires employees to use the Government Travel Charge Card for 
payment of all travel expenses. We have also mandated the use 
of the ETS travel system for airline, rail and car rental, as 
well as Fed Rooms for lodging.
    GSA now requires mandatory annual training regarding 
conference attendance for all employees. This training 
highlights the importance of considering cost effective 
alternatives and ensures that each and every employee 
understands the difference between an appropriate and 
inappropriate expense.
    We have also provided greater transparency into our 
conference expenses. We have posted on our website all 
conferences held last year with a cost of over $100,000. That 
includes the budget and justification for why the conference 
was held.
    All told, these changes under Acting Administrator 
Tangherlini have dramatically reduced costs, improved oversight 
and ensured that travel and conference expenses are fully 
justified and mission related. In 2012, our travel costs were 
less than half of what GSAs expenditures in 2011. We have saved 
$28 million through the end of fiscal year 2012 alone.
    Finally, as part of our agency's mission to serve our 
federal partners and deliver savings, we are providing tools to 
allow agencies better to manage their travel and conference 
spending. We are working with OMB on changes to government-wide 
travel policies that will increase efficiency and 
effectiveness, reduce cost and incorporate industry best 
practices.
    These efforts are in line with the Administration's aim to 
reduce cost across a wide range of administrative expenses 
including travel and conferences. We are firmly committed at 
GSA to improving the efficiency and effectiveness of the 
government including reducing travel costs. Our work is not 
done and we continue to refine our policies, work with OMB and 
other federal agencies and members of this committee.
    I appreciate the opportunity to be here to discuss our 
changes and welcome any questions you may have.
    [Prepared statement of Ms. Metzler follows:]
    [GRAPHIC] [TIFF OMITTED] 80898.008
    
    [GRAPHIC] [TIFF OMITTED] 80898.009
    
    [GRAPHIC] [TIFF OMITTED] 80898.010
    
    [GRAPHIC] [TIFF OMITTED] 80898.011
    
    Mr. Farenthold. Thank you very much, Ms. Metzler.
    I will now recognize myself for five minutes of 
questioning.
    I do think one of the important things that will come out 
of this hearing and the proposed regulations is a change in the 
culture on the part of government employees, to take to the 
mind set that this is the taxpayers hard earned money that we 
are spending and you actually need to spend it more carefully 
than even you would spend your own money.
    Having gone to numerous conferences in my previous career 
as a lawyer, even working in the private sector, there were 
certain expenses I would not put on the blue slip. I would put 
the McDonald's lunch on there but if I decided to treat myself 
to a steak dinner, I would eat that cost myself.
    Obviously, we cannot ask the federal workforce to buy their 
own meals, but when they are asking the taxpayers to pay for 
them, I think it is appropriate they think maybe I could do 
with a sandwich instead of a steak. It is that sort of 
incentive.
    I think the GSA is taking the lead in that. Obviously it is 
unfortunate that it had to come as the result of a very public 
scandal. One of the impediments I see to taking advantage of 
that is actually educating the workforce and simplifying some 
of the tools like ETS and Fed Rooms and even though outside of 
the travel area, GSA purchasing websites, that are very often 
difficult to use for the end user compared to private sector 
equivalents.
    I know in my travel, I am able to book online. I do not use 
ETS. If I am on United, I can get government rates on their 
website. I think they are one of the few airlines that offer 
that. I would encourage you to work with your vending partners 
to make the process much simpler.
    I am concerned the culture is not catching on. There were 
recent reports that the Post Office spent a ton of money and 
had a $15 billion loss and cutting Saturday delivery, but they 
have a conference they set up in San Francisco that was going 
to cost $2.2 million. That seems like that's not in the spirit.
    Are we seeing the government actually following this? I 
will ask Mr. Werfel, have all the agencies complied and are 
they reporting their expenses over $100,000? Are you getting 
that information?
    Mr. Werfel. Yes, absolutely. Thank you for the question.
    I think there were one or two agencies that missed our 
January 31 deadline but for the most part, I believe all 
reports are now in. I think the key is that the reports do 
demonstrate what we believe to be happening post last year when 
GSA had the issue we have been describing and OMB issued its 
memorandum. There has been significant attention to this matter 
and a lot of aggressive action to cut back on this type of 
spending.
    Mr. Farenthold. Do you have any numbers on how many 
conferences have gone over the $500,000 threshold?
    Mr. Werfel. Yes, I do have some of those summary 
statistics. I believe it is roughly between 130 and 140 
conferences that were over the $500,000 threshold. I can get 
you more precise numbers.
    Mr. Farenthold. I would like to see those for the record. 
Are we seeing them actually posted on the website in a manner 
that the public can find?
    Mr. Werfel. Yes. That is how we got the information I just 
shared with you.
    Mr. Farenthold. It is my understanding that the VA finally 
came in today with their report.
    Mr. Werfel. Yes. I think that was the last agency. I think 
we now have full compliance.
    Mr. Farenthold. Ms. Metzler, the GSA's job is to negotiate 
deals and save us money. Having grown up in and representing an 
area that the travel industry is important too, I understand 
the revenue streams of hotels are derived not just from the 
overnight stay of the rooms. In conference situations, often 
they will give you the rooms free but you end up paying a lot 
for the catering and cannot bring in food. There are reports of 
very expensive breakfasts and lunches at hotels.
    Is there anything that GSA can do to leverage the 
government's buying power to bring some of those in line and 
bring the catering costs to where if you were going to do a 
conference at a hotel within the allowable per diem rate for 
government employees while traveling?
    Ms. Metzler. Thank you for the question.
    Since April 2012, in terms of the conferences that GSA 
itself has hosted, we have been able to negotiate with the 
conference sites and the hotel to bring the food costs under 
the per diem rate. We can begin working with OMB and other 
agencies to share our experience. It is possible to do it.
    Mr. Farenthold. I think it is an opportunity for the GSA to 
take leadership in making that available. I really do think it 
is consistent with the GSA's mission. I look forward to having 
you back here next year to hearing what a huge success it is.
    I see I am running out of time. We need to let the other 
members get to questions. If we have time afterwards, I do have 
another round of questions if you will indulge me. At this 
point, I will yield to the Ranking Member, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the witnesses for coming here today and 
helping us with our work.
    This is for both of you. If OMB tracks costs for travel and 
conferences separately, what are the government-wide totals for 
these categories? Is that how we are reporting this? I am 
concerned sometimes we begin to pay attention when we have a 
scandal like we did with GSA last year but then things sort of 
get forgotten until the next scandal and it pops up on our 
radar screen again.
    What are the ongoing procedures in monitoring methods that 
we are using to keep track of this?
    Mr. Werfel. Let me first start by saying that on the one 
hand, it is fortunate that our budget structure does enable us 
to isolate travel. Travel is a big category. There are a lot of 
diverse actions that take place under that category. We do 
collect information. One of the things in my testimony is that 
when you look at the overall cost of travel across government, 
they are steadily declining. In 2010, it was $11.7 billion. We 
expect them to be closer to $9.5 billion by 2013.
    The challenge that arose was with respect to the issue when 
we learned there was this significant financial risk associated 
with conference spending that we do not and have not 
historically disaggregated conference spending within our 
budget accounts. We needed to take action because part of the 
challenge here is not only taking the specific steps to be 
smarter about meals and lodging, but also to understand the 
macro numbers going on across government and agency specific.
    We have now initiated this collection of information from 
agencies. We now have a baseline. I earlier mentioned a number 
to Chairman Farenthold in terms of the number of conferences 
over $500,000. Next year, we will know the updated number and 
see where we are trending, the updated cost number of 
conferences because we are collecting this information.
    The information we are collecting is imperfect. There might 
be a level of detail that you would like to know and we have to 
balance the burden that is imposed on agencies in collecting 
all this information. What we have done is to try to collect 
the right amount of information we think enables us to see 
trends and identify risk points.
    As I mentioned earlier, I think as a general matter, what 
we have seen occur since the situation with GSA and the Las 
Vegas conference is an enormous amount of attention that is 
generating very important and positive results in terms of 
improving our overall approach, not just to travel and 
conferences, but administrative expenses across the board like 
information technology and other things.
    Mr. Lynch. Ms. Metzler?
    Ms. Metzler. Since April 2012, GSA now tracks its 
conference spending separately from its travel spending. Partly 
that is because in order to hold a conference or attend a 
conference, the requestor must submit a detailed budget. That 
budget includes the expenses of the conference including 
booths, meals and travel. We can now begin to disaggregate the 
travel costs associated with conferences, the travel we have 
that is mission-related travel and has nothing to do with 
conferences and the cost of having a conference. We did not do 
that before April. We are continuing to evolve those.
    Mr. Lynch. Do either of you have any examples where we 
might incentivize agency departments or groups to spend less? 
Do we use the carrot and a stick or do we just say we want a 30 
percent and by God, we have to have it?
    Mr. Werfel. I think one of the things I have learned 
through this process is that in response to a situation where 
many across government were angered and upset and continue to 
want to demonstrate to the taxpayer that we are way more often 
than not effective stewards of the taxpayer dollar.
    This event has really incentivized a different set of 
behaviors across government. From secretaries down to the GS-9 
or GS-7 employee that is involved in planning for these, there 
is an enormous amount of due diligence. Let me give you one 
anecdote.
    My job is not to do specific conferences but every once in 
a while, I get invited to a conference where it is about 
financial management internal control. I was invited to 
participate in planning for a conference. The type of planning 
that went in, we were dedicated to doing it in a government 
facility, it had to be in Washington, D.C. because that is 
where most of the people were to do one day and try to pack in 
the most substantive agenda we could.
    On meals, since Chairman Farenthold asked about it, we held 
the facility near a food court and decided to do no catering. 
Everyone bought their own lunch at the food court. That is the 
type of culture we are transitioning to.
    Mr. Lynch. Did anyone come?
    Mr. Werfel. Yes, we had 800 people.
    Mr. Lynch. Thank you.
    I yield back, Mr. Chairman.
    Mr. Farenthold. Thank you.
    I will recognize Mr. Walberg for five minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Thanks to the 
witnesses for being here.
    Let me ask Mr. Werfel and Ms. Metzler a simple question. 
How frequently does conference spending on meals and 
incidentals exceed the GSA set maximum, allowable per diem of 
reimbursement? How frequently does that happen?
    Mr. Werfel. I am not sure I know the answer to that 
question. I apologize. I can try to work on data and get back 
to you.
    I do not know if this will be responsive to your question, 
what we are concerned about are situations in which if a 
conference participant is given a meal that creates no out of 
pocket costs for them, then they have to adjust down their per 
diem appropriately to make sure they are not getting any extra 
funding or bonus as a result of this event. That is in a list 
we perceived as we were working through the conference 
activity.
    In terms of your question, I do not have the specific data.
    Mr. Walberg. Ms. Metzler, do you?
    Ms. Metzler. In our request to attend or host a conference, 
one of our line items is the food item and they have to justify 
that it is at per diem rate. That is part of the approval 
process.
    In early April 2012, under the Acting Administrator, GSA 
limited the per diem cost for conferences, limited the cost for 
meals to the actual per diem.
    Mr. Walberg. They are not pushing it?
    Ms. Metzler. We are pushing it, yes. We will not approve a 
conference or an activity that has not been limited to the per 
diem rate. That is part of our oversight. As Mr. Werfel said, 
when we are looking at a conference, we are looking at every 
alternative to make sure that people are not getting 
inappropriate food. If it is a local conference, they are not 
entitled to per diem, there cannot be any food provided.
    Mr. Walberg. But again I guess what we are saying is we do 
not know the frequency of them pushing this GSA rule?
    Ms. Metzler. We know internally within GSA we are pushing 
it.
    Mr. Walberg. I guess my question was, the departments are 
coming to you with clean, clear requests for conferences. I 
guess what I am looking at is, are they getting it, are we 
getting it across?
    Mr. Werfel. I think I understand your question and the root 
of your concern. Let me back up a second and say, first, OMB, 
as an institution, does not approve conference by conference. 
We establish and work with GSA to establish government-wide 
regulations. Our regulations are getting stronger.
    They were already strong. A lot of things that happened in 
Las Vegas were violations of existing regulation. Nevertheless, 
it was still important to tighten those regulations even 
further. It is really up to the agency to abide by those 
regulations.
    My bottom line point is I do believe, based on everything 
and all my involvement in this issue, this issue is being taken 
as seriously as any in government right now.
    Mr. Walberg. Mr. Werfel, what was the total spent for 
administrative costs for all fiscal year 2012 conferences that 
cost in excess of $100,000, administrative costs?
    Mr. Werfel. I think the total costs, There is a slide up 
there we are still working through the numbers. For example, 
VA's report has just come in, but I think that is in the right 
range. It is somewhere between $250 and $300 million in 
conference costs in 2012 for conferences above $100,000 in 
total costs.
    Mr. Walberg. Let me ask, Mr. Werfel, it appears that 
military travel is not on pace to meet the 30 percent reduction 
goal. We are facing sequester issues now and great concern 
about the defense budget and capabilities. If this is the case, 
could you discuss what specific steps OMB has taken to ensure 
that the Department of Defense meets this target by the end of 
this fiscal year?
    Mr. Werfel. I think this echoes some of what Congressman 
Holt was saying. In taking the 30 percent cut, we wanted to 
make sure that we were protecting mission critical activities 
where there was a real sense that a reduction or steep 
reduction would compromise the agency mission. The goal in 
eliminating the 30 percent is making sure we are eliminating 
excess or somewhat discretionary travel activities.
    All of it is important but there is a difference between, 
for example, military travel or civilian travel to support 
particular military operations, scientists getting together to 
study molecular biology and study different diseases and FBI 
agents getting together versus accountants getting together to 
train, and procurement officials getting together to train. 
That is important but what we perceive there is an ability to 
drive some greater efficiencies.
    In the area of military travel, we have essentially 
excluded that from our 30 percent reduction category because we 
believe when the military travels, it is extremely important to 
give them some flexibility in terms of how they take those 
reductions due to some of the really acute operational issues 
that emerge.
    Let me close with this point which is really important. One 
of the challenges we have here is one in which we invite your 
feedback, that the definition of conferences is extraordinarily 
broad. When this whole issue came up, we had to make a 
decision, do we try to narrow the definition of conference and 
then try to attack the problem on a narrow definition.
    If employees are co-locating to work, it is technically a 
conference. That can even come up with respect to FBI agents 
co-locating to do an investigation. If scientists are co-
locating in Africa to study a particular outbreak of a virus, 
that is technically a conference. When you pile that into all 
the other conferences and attempt to take a 30 percent cut, it 
creates some mission complications.
    We have decided for the time being to take this approach. 
We have not changed the definition of conferences; we have 
established a 30 percent cut and then we have asked each agency 
to meet that 30 percent cut but protect certain activities. We 
have had numerous discussions with agencies to make sure they 
are not over protecting or under protecting.
    Military travel falls in the area of protection. If there 
are concerns about that, we should definitely have more 
discussions with you about how we can resize that. That is our 
approach right now.
    Mr. Walberg. I appreciate those details. Those are very 
helpful. Thank you.
    Mr. Farenthold. I see with just three of us present, we do 
have time, if you will indulge us, for a quick second round of 
questioning. Then I think we all need to be off to our other 
responsibilities.
    Where are we, Mr. Werfel, in reaching the 30 percent goal 
of reduction? Do you have a number? Are we at 10 percent, 20 
percent, or 30 percent? Are we close? How is it coming?
    Mr. Werfel. We are close. We are right in range. I 
mentioned earlier that the total travel costs in 2010 were 
roughly $11.7 billion. We are on track for there to be a 
slightly more than $3 billion lower spend rate in 2013 versus 
2010. I mentioned in my oral testimony that we are $2 billion 
of the way there. We are zeroing in on a rough 30 percent goal 
in terms of seeing the overall travel spending reduction.
    Mr. Farenthold. Since you monitor this, are you hearing 
anything through the grapevine or around the coffee machine 
that these effects are having an adverse effect or are we 
getting the cost savings we are after?
    Mr. Werfel. I am hearing a mixture. This is something I 
think government agencies should be proud of. As you mentioned, 
it is unfortunate that we had this event occur that drove some 
of this but the reality today is that the culture has changed 
dramatically in terms of travel and conference spending. The 
public transparency we are providing I think feeds into more 
accountability and better results.
    The biggest area that I face criticism and concern is 
coming from the scientific community as Representative Holt 
mentioned. I think it is legitimate. These are very tough 
questions of public policy.
    I have learned through this process and have a growing 
appreciation for is how critical to the advancement of science 
collaboration is. When there is a scientific advancement or a 
setback, the whole engine of science runs by co-locating and 
collaborating around it.
    Mr. Farenthold. Some of the best inventions and 
breakthroughs have been the result of accidents. You learn that 
in elementary school science.
    Let me ask you a question. A lot of government employees 
who travel are issued a GSA travel card much like the one I use 
for official travel expenses. I had a speaking engagement in 
Austin, Texas last week and bought my meals with this card. 
Under the supremacy clause to the United States Constitution, 
the States cannot tax us but at every restaurant they tried to 
tag me with sales tax. Had I used this card for a hotel, they 
would have tried to charge me hotel and motel tax. There is a 
complicated procedure and form I have to fill out to save that 
money. In Texas, sales tax is 8 percent plus depending on where 
you are.
    Is there a way GSA can work with the credit card vendors or 
come up with a way where the taxpayers are not paying taxes to 
the State when we do not have to?
    Ms. Metzler. Mr. Chairman, yes. GSA is looking at that. 
There are only 11 States that do not charge the travel card 
because they are, as you know, individually issued to the 
federal employee.
    With our Fleet Card, which is another part of the Smart Pay 
Program, that card and the purchase card are government cards 
and there are no taxes charged to those. There is a recovery 
effort with the Fleet Card programs but we are working with 
those other 11 States on the issue that you are raising.
    Mr. Farenthold. Thank you very much.
    This is a huge savings with absolutely no cuts for anybody 
if we do not pay stuff we do not owe. To me that seems like a 
no brainer.
    Mr. Werfel, you mentioned redefining what a conference is. 
I know the FAA struggles every year in Oshkosh with a big air 
show of private airplanes. They take the best of the best of 
their controllers to Oshkosh to be the air traffic control for 
what becomes for one week's time the busiest airport in the 
world. They are concerned that under conference definitions, 
sending those people there to do their job is a conference. I 
understand your concern.
    That leads me to the next question which I will pose to you 
both. What are we missing here aside from defining conference? 
Is there anything else that is too much or not enough in the 
proposals that we need to look at if we decide to pursue 
something on a legislative front?
    Mr. Werfel. That is a good question. I think the definition 
of conference is one we need to sort through, as I mentioned. I 
think the keys here are public policy tension, which I 
mentioned before. We want to be very protective of taxpayer 
resources and make good decisions, but at the same time, an 
across the board cut of 30 percent or whatever it is needs to 
have a very well thought out exception clause.
    We need a good structure in place to ensure that we are 
filtering through the exception clause things that should move 
forward as they were intended. Maybe the air show example is a 
good one of that versus things that we might make a mistake on 
and it would filter through. That is a collaborative effort 
amongst professionals, both science, financial management and 
maybe GAO could be helpful and involved in that as well.
    I think the other key thing to look out for that we 
struggle with is how much data to put on the Web and to make 
clear. Clearly we have a great start. We have total conference 
expenses, location, date, explanation of how the conference 
advances mission, number of individuals that are going that are 
paid by the agency, etc. There is a good footprint of 
information.
    However, I cannot answer all the questions that are being 
posed because I would add 20 or 30 more line items. With each 
additional line item of data, you are asking agencies to 
collect that information and that has an underlying 
administrative cost. I think one of those areas to help us is 
what is the optimal point in terms of data collection. I think 
there is more to be looked at to make sure we are at the right 
spot.
    Mr. Farenthold. I am out of time. I want to give Ms. 
Metzler an opportunity before we go back to Mr. Lynch.
    Ms. Metzler. I would just concur with what Mr. Werfel said. 
I don't think I can add anything to that.
    Mr. Farenthold. Thank you very much.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I do notice that if you look at the text of the OMB 
memorandum and then look at H.R. 313, it actually limits the 
number of people who can go to a conference to 50. I have heard 
grumblings from some of the folks in our scientific community. 
Mr. Holt raised some of these concerns.
    I know the International AIDS Conference is attended by 
hundreds and hundreds, probably thousands of scientists and 
other experts. Also, I think the Human Services Department and 
the National Institutes of Health have, in the past, sent 
hundreds of scientists. Are we hurting the efficacy and the 
value of those conferences by severely limiting it to 50 
people?
    Mr. Werfel. Yes, I think so potentially in two ways. One, 
if we don't enable the head of the agency or the leader of that 
particular program area to make a best judgment in terms of are 
we effectively serving our mission by getting more people there 
and we have kind of a strict rule of construction? That is one 
thing.
    I will tell you where I come from, my expertise is more 
around financial management and cost savings. Often we are 
sending more people in order to drive more efficiency because 
if we have to train these people, if we decentralize training 
and send 30 people and 30 people and 30 people to three 
different trips versus 90 people to one trip, that can have 
cost implications. Let me give you one example to drive that 
home.
    Law enforcement, FLETC, we have developed these training 
centers around geographic locations to bring a bunch of people 
together to co-locate for that training. If we set a limit of 
50 people, you are devolving back into not co-locating for 
training but a lot of disparate training, and that cost issue.
    Mr. Lynch. Ms. Metzler, anything on that?
    Ms. Metzler. GSA does not send a lot of people to 
international conferences.
    Mr. Lynch. Thank you. I yield back.
    Mr. Farenthold. Thank you very much, Mr. Lynch.
    I have enjoyed our first hearing. I look forward to 
continuing to work with you, your staff and the rest of the 
committee.
    I would like to thank our witnesses for taking the time 
from their very busy schedules to appear before us. I charge 
you to go back and save the taxpayers some money.
    With that, we are adjourned.
    [Whereupon, at 1:28 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 80898.012
    
    [GRAPHIC] [TIFF OMITTED] 80898.013
    
    [GRAPHIC] [TIFF OMITTED] 80898.014
    
    [GRAPHIC] [TIFF OMITTED] 80898.015
    
    [GRAPHIC] [TIFF OMITTED] 80898.016
    
    [GRAPHIC] [TIFF OMITTED] 80898.017
    
    [GRAPHIC] [TIFF OMITTED] 80898.018
    
    [GRAPHIC] [TIFF OMITTED] 80898.019
    
    [GRAPHIC] [TIFF OMITTED] 80898.020
    
    [GRAPHIC] [TIFF OMITTED] 80898.021
    
    [GRAPHIC] [TIFF OMITTED] 80898.022
    
    [GRAPHIC] [TIFF OMITTED] 80898.023
    
    [GRAPHIC] [TIFF OMITTED] 80898.024
    
    [GRAPHIC] [TIFF OMITTED] 80898.025
    
    [GRAPHIC] [TIFF OMITTED] 80898.026
    
    [GRAPHIC] [TIFF OMITTED] 80898.027
    
    [GRAPHIC] [TIFF OMITTED] 80898.028
    
    [GRAPHIC] [TIFF OMITTED] 80898.029
    
    [GRAPHIC] [TIFF OMITTED] 80898.030
    
    [GRAPHIC] [TIFF OMITTED] 80898.031
    
                                 <all>

</pre></body></html>
